  September 22, 2006




Financial Management

Consolidation of Northrop Grumman
Pension Accounting Records for the
Acquisition of TRW
(D2006-113)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
BSC                   Business Support Center
CAS                   Cost Accounting Standards
CIPR                  Contractor Insurance/Pension Review
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DoD IG                Department of Defense Inspector General
SEG                   Space and Electronics Group
SIG                   Systems Integration Group
                             INSPECTOR GENERAL 

                            DEPARTMENT OF DEFENSE 

                             400 ARMY NAVY DRIVE 

                        ARLINGTON, VIRGINIA 22202-4704 





                                                                       September 22,2006


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
SUBJECT: Report on Consolidation of Northrop Grumman Pension Accounting
         Records for the Acquisition of TRW (Report No. D-2006-113)

      We are providing this report for your review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Contract Management Agency comments were not responsive. We request
the Director, Defense Contract Management Agency to provide additional comments on
Recommendations 1., 2.a. and 2.b. by October 23,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audclev@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Raymond D. Kidd at (703) 325-5515 or Mr. Kenneth B. VanHove at (216) 706-0074
extension 245. See Appendix B for the report distribution. The teani members are listed
inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                         ~ a u v ~ r a n e t tCPA
                                                              o, 

                                       Assistant Inspector General 

                                       Defense Financial Auditing 

                                                 Service 

               Department of Defense Office of Inspector General
Report No. D-2006-113                                               September 22, 2006
  (Project No. D2006-D000FC-0001.000)

        Consolidation of Northrop Grumman Pension Accounting
                  Records for the Acquisition of TRW

                                Executive Summary

Who Should Read This Report and Why? DoD and private sector contracting,
accounting, and auditing officials who deal with Defense contractor business
combinations, divestitures, and pensions should be interested in this report for its
application in accounting for Government-funded pension assets following a merger.

Background. Northrop Grumman is among the largest companies in the defense
industry. Northrop Grumman conducts most of its business with the U.S. Government,
which accounted for approximately 87 percent of Northrop Grumman’s total revenues in
2004. Historically, Northrop Grumman concentrated its efforts in high technology areas
such as stealth, airborne surveillance, precision weapons, systems integration, and
defense electronics. Northrop Grumman has continued to expand its presence in these
areas through various acquisitions, to include the acquisition of TRW.

On December 11, 2002, Northrop Grumman issued 139 million shares of stock in
exchange for all outstanding shares of TRW. TRW was a U.S.-based international
company, which operated its business under three divisions: Automotive, Systems, and
Space and Electronics. At the time of acquisition, approximately 30 percent of TRW
total sales were to the U.S. Government. After Northrop Grumman acquired the TRW
stock, Northrop Grumman sold the TRW Automotive Division and retained the Systems
and Space and Electronics divisions performing Government-related work.

Defense contractors charge DoD for costs associated with each pension plan having
participants who perform Government work. These pension costs charged to
Government contracts are not paid as benefits during the performance of the contract.
Rather, the pension costs are accumulated as Government-funded assets in a pension trust
for future payment of benefits when the employees retire. Once DoD is charged for and
pays pension costs for a business segment with Government contracts, these
contributions are accounted for as assets of the segment. If a business segment is sold,
the parties may agree to a continuation of the pension plan with the buyer and a
corresponding transfer of the Government-funded pension assets and liabilities to the
successor contractor. If the pension plan is retained by the seller, a settlement is
negotiated with the Government as an adjustment to the previously paid pension costs.

Results. Defense Contract Management Agency representatives did not document why a
21 percent increase in pension costs occurred for the TRW Salaried Pension Plan
immediately following the Northrop Grumman acquisition of TRW. As a result, DoD
has no assurance that the increased costs to the TRW Pension Plan at the time of the
Northrop Grumman acquisition are reasonable. The Director of the Defense Contract
Management Agency should require a Contractor Insurance/Pension Review (CIPR) of
the pension-related events that occurred at the time of the Northrop Grumman acquisition
of TRW. The Director of the Defense Contract Management Agency should also update
existing CIPR guidance in the Defense Contract Management Agency guidebook to
require CIPR teams to maintain documentation supporting the decision not to conduct a
CIPR when high-risk issues are present. Additionally, the CIPR guidance should be
updated to include a change in the percentage of a contractor’s Government-to
-commercial workload as a high-risk event. See the Finding section of the report for
detailed recommendations.

Management Comments and Audit Response. The Executive Director of Contract
Operations and Customer Relations, Defense Contract Management Agency commented
on the draft of this report, however, the comments are not responsive. The Executive
Director disagreed that a CIPR should be performed to examine the pension-related
events we identified that may have caused the 21 percent increase in pension costs. The
Executive Director’ comments also stated that Defense Contract Management Agency
would address recommendations related to updating guidance once DoD Inspector
General auditors finish their series of audits of pension plans at the major contractors.
We still believe that the only way Defense Contract Management Agency can determine
whether the 21 percent increase in pension costs was reasonable is to perform a CIPR
specific to that purpose. We also see no reason for the Defense Contract Management
Agency to wait for other audits before addressing the need for guidance as the guidance
we are recommending would apply to all major contractor pension plans. We request
that Defense Contract Management Agency provide comments on the final report by
October 23, 2006. See the Finding section of the report for a discussion of management
comments. See the Management Comments section of the report for the complete text of
the Defense Contract Management Agency’s comments.




                                            ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objective                                                                2

Managers’ Internal Control Program Review                                2

Finding
     Pension Plan Costs After the Northrop Grumman Acquisition of TRW    3

Appendixes
     A. Scope and Methodology                                           10
     B. Report Distribution                                             12

Management Comments
          Defense Contract Management Agency                            13
Background
           Northrop Grumman Acquisition of TRW. Northrop Grumman is among the
           largest companies in the defense industry. Northrop Grumman conducts most of
           its business with the U.S. Government, which accounted for approximately
           87 percent of Northrop Grumman’s total revenues in 2004. Historically, Northrop
           Grumman concentrated its efforts in high technology areas such as stealth,
           airborne surveillance, precision weapons, systems integration, and defense
           electronics. Northrop Grumman has continued to expand its presence in these
           areas through various acquisitions, to include the acquisition of TRW.

           On December 11, 2002, Northrop Grumman issued 139 million shares of stock in
           exchange for all outstanding shares of TRW. TRW was a U.S.-based
           international company, which operated its business under three divisions:
           Automotive, Systems, and Space and Electronics. At the time of acquisition,
           approximately 30 percent of TRW total sales were to the U.S. Government. After
           acquiring the TRW stock, Northrop Grumman sold the TRW Automotive
           Division and retained the Systems and Space and Electronics Divisions
           performing Government-related work.

           Cost Accounting Standards. Generally, corporations that negotiate contracts of
           $50 million or more with the Government are required to comply with the Cost
           Accounting Standards (CAS). Included in the CAS are rules for pension
           accounting under CAS 9904.412, “Cost Accounting Standard for Composition
           and Measurement of Pension Cost,” October 1, 2004, 1 and CAS 9904.413,
           “Adjustment and Allocation of Pension Cost,” October 1, 2004. 1 CAS 9904.412
           prescribes guidance for determining the components of pension costs, as well as
           measuring, assigning, and allocating pension cost. CAS 9904.413 provides
           guidance for assigning actuarial gains and losses, valuating the assets of a pension
           plan, and allocating pension cost to segments.

           Pension Plan Assets. Defense contractors charge DoD for costs associated with
           each pension plan having participants who perform Government work. These
           pension costs charged to Government contracts are not paid as benefits during the
           performance of the contract. Rather, the pension costs are accumulated as
           Government-funded assets in a pension trust for future payment of benefits when
           the employees retire. Once DoD is charged for and pays pension costs for a
           business segment with Government contracts, these contributions are accounted
           for as assets of the segment. If a business segment is sold, the parties may agree
           to a continuation of the pension plan with the buyer and a corresponding transfer
           of the Government-funded pension assets and liabilities to the successor
           contractor. If the pension plan is retained by the seller, a settlement is negotiated
           with the Government as an adjustment to the previously paid pension costs.

           Contractor Insurance/Pension Review Teams. The Defense Federal
           Acquisition Regulation Supplement (DFARS), Part 242, “Contract
           Administration,” Subpart 242.73, “Contractor Insurance/Pension Review,”

1
    A review of the CAS in effect at the time of the Northrop Grumman acquisition of TRW identified no
    differences with the current citations that would affect the results of the review.



                                                     1
           February 23, 2006, 2 establishes DoD requirements for conducting a Contractor
           Insurance/Pension Review (CIPR). DFARS establishes a joint Defense Contract
           Management Agency (DCMA)/Defense Contract Audit Agency (DCAA) CIPR
           team and identifies DCMA as the DoD Executive Agency for the performance of
           all CIPRs. The CIPR team is responsible for conducting comprehensive reviews
           that include pension plans and related policy, procedures, practices, and costs.
           The CIPR team performs the review at the request of the Defense Corporate
           Executive. 3 As the Executive Agency for CIPRs, DCMA created two CIPR
           Centers – CIPR Team East in Staten Island, New York, and CIPR Team West in
           Carson, California. The CIPR Centers’ responsibility is to provide guidance and
           consultation to DoD contracting personnel regarding pension plan laws and
           regulations. Additionally, the CIPR Centers provide guidance and consultation
           regarding pension plan calculation methodologies for acceptable actuarial
           methods and the use of reasonable assumptions.

Objective
           Our overall audit objective was to evaluate the DCMA reviews of Northrop
           Grumman consolidations of pension accounting records for selected business
           acquisitions to verify performance of reviews in accordance with the Federal
           Acquisition Regulation and DFARS. Specifically, we determined whether the
           DoD interest in Government-funded pension assets had been adequately
           protected. See Appendix A for a discussion of the scope and methodology, and
           prior coverage related to the objectives.

Managers’ Internal Control Program Review
           DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
           January 4, 2006, requires DoD organizations to implement a comprehensive
           system of internal controls that provides reasonable assurance that programs are
           operating as intended and to evaluate the adequacy of the controls.

           Scope of the Review of the Managers’ Internal Control Program. We did not
           review the entire DCMA system of internal controls. However, we did review the
           internal controls applicable to our audit objectives. During the course of the
           audit, we identified internal control weaknesses involving DCMA performance of
           CIPRs and DCMA CIPR guidance. See the finding for further details on the
           internal control weaknesses.




2
    Based on a review of the DFARS Subpart 242.73 in effect at the time of the Northrop Grumman
    acquisition of TRW, no significant differences with the current citations were identified that would affect
    the results of the review.
3
    A Defense Corporate Executive is the DoD’s liaison to the contractor’s corporate management assigned
    to DoD’s largest contractors. These individuals also perform selected contract management functions
    having a corporate-wide impact.



                                                        2
           Pension Plan Costs After the Northrop
           Grumman Acquisition of TRW
           DCMA representatives did not document why a 21 percent increase in
           pension cost occurred for the TRW Salaried Pension Plan (the TRW
           Pension Plan) immediately following the Northrop Grumman acquisition
           of TRW. They did not document the cause of the increase because the
           scope of various CIPRs did not address all the pension-related events that
           may have caused the increased pension costs at the time of acquisition.
           As a result, DoD has no assurance that the increased costs to the TRW
           Pension Plan at the time of the Northrop Grumman acquisition are
           reasonable.


TRW Salaried Pension Plan
    When Northrop Grumman acquired TRW, the TRW Pension Plan included
    4 distinct segments with assets valued at more than $2 billion. The Systems
    Integration Group (SIG) and the Space and Electronics Group (SEG) segments
    accounted for all Government-related pension assets and liabilities. The Business
    Support Center (BSC) segment represented the pension assets and liabilities for
    the corporate personnel performing both Government and commercial work. The
    final segment included the pension assets and liabilities for personnel performing
    commercial work. After the acquisition, Northrop Grumman renamed the TRW
    Pension Plan the Northrop Grumman Space and Mission Systems pension plan.


DoD Pension Cost Changes
    DCMA representatives did not document why pension costs increased by
    21 percent for the TRW Pension Plan immediately following the Northrop
    Grumman acquisition of TRW. The forward pricing rate proposals for the SIG,
    SEG and BSC segments showed significant pension cost increases after the
    acquisition. The following table shows the pension cost increases for the three
    segments by comparing the TRW forward pricing rate proposal for the two
    Government and BSC segments within the TRW Pension Plan to the same
    segments within the Northrop Grumman forward pricing rate proposal for the
    Northrop Grumman Space and Mission Systems pension plan.




                                        3
             TRW Salaried Pension Plan Costs for 2003
                      (dollars in thousands)
                                 SIG/SEG Costs      BSC Costs
 Northrop Grumman Proposal              $140,520          $3,720
 TRW Proposal                            116,238           1,026
 Increase                                 24,282           2,694

 Percent Increase                                  21                 263

The change in pension costs for the Northrop Grumman Space and Mission
Systems pension plan may have occurred because of several pension-related
events occurring at the time of the acquisition. These events include:

    •   changes to the long-term valuation rate used in the plan,

    •   different long-term investment rates used for forward pricing calculations,

    •   payment of lump sum benefits for corporate commercial employees, and

    •   pension costs paid by DoD for new line items included in the Government
        segments.

Long-Term Valuation Rate. Northrop Grumman changed the long-term
valuation rate actuarial assumption for the Northrop Grumman Space and Mission
Systems pension plan from 8.5 percent to 8 percent after Northrop Grumman
acquired TRW. The pension plan liability increases with a corresponding
decrease in the long-term valuation rate, which increases pension costs for DoD.
Northrop Grumman reduced the pension plan rate because numerous TRW
employees took a lump sum benefit payment upon acquisition by Northrop
Grumman. These payments decreased the pension assets available to earn future
interest. Northrop Grumman reduced the actuarial long-term valuation rate for a
more realistic reflection of investment return. DCMA representatives indicated
the change from 8.5 percent to 8.0 percent was reasonable. However, DCMA
representatives did not provide documentation supporting the reason for the rate
change, a review of the impact on pension costs, or a review of the impact on the
valuation of pension liabilities by segment.
Forward Pricing Long-Term Investment Rate. Northrop Grumman used a
long term investment rate of 8.5 percent to calculate the forward pricing rate
proposal for 2003 through 2009. However, Northrop Grumman’s actuary used a
long-term investment rate of 8 percent. A higher interest rate for forward pricing
decreases DoD’s pension costs. A lower interest rate will increase pension costs
for DoD. Using a higher interest rate should have resulted in a decrease in
forecasted pension costs; however, as indicated in the table, forecasted pension
costs for 2003 increased significantly. DCMA representatives should consider
the use of different long-term investment rates in 2003 when assessing the
increase in pension costs.




                                     4
    BSC Segment Pension Costs. DCMA representatives did not provide
    documentation supporting an analysis of the lump sum benefit payments made to
    TRW Pension Plan participants and the related impact on Government pension
    costs. In addition, DCMA representatives were unable to provide documentation
    of the number or type of employees who took the lump sum benefit payments.
    The BSC segment within the TRW Pension Plan represented corporate
    headquarters employees performing both commercial and Government work. In
    2002, DoD was charged 33 percent of the pension costs for the BSC. At the time
    of the Northrop Grumman acquisition, corporate employees may have received a
    lump sum benefit payment offered by the TRW Pension Plan. After the sale of
    the TRW commercial segment, DoD paid a higher percentage of pension costs for
    BSC employees based on the increased ratio of Government to commercial work.
    Although this seems reasonable, DoD may be paying increased pension costs for
    lump sum benefit payments made to corporate employees who performed
    commercial work. DCMA representatives stated that identifying specific pension
    costs as commercial and unallowable is not simple and may be insignificant.
    However, DCMA representatives were unable to provide analysis supporting their
    opinion.

    New Line Items. DCMA representatives did not provide documentation
    supporting analysis of the allowability of new line item pension costs charged to
    Government pension segments. In 2003, DoD paid pension costs for new line
    items in the Northrop Grumman Space and Mission Systems pension plan not
    identified prior to the Northrop Grumman acquisition of TRW. DoD paid an
    additional $55 million and $133 million for 2003 and 2004, respectively, for the
    new line items. For example, in 2003, DoD paid $1.5 million in pension costs for
    the “GIT Commercial Public Admin and Human Services-SIG” line item. The
    DCMA pension specialist was unaware of the new line items and the associated
    pension costs, even though some of the new line items appeared to be commercial
    in nature. Although DCMA representatives stated that they typically don’t review
    the pension costs at the detail level, they said these costs were allowable.
    However, DCMA representatives were unable to provide documentation of this
    analysis.


CIPR Reports
    Although DCMA representatives conducted several CIPRs, the scope of the
    CIPRs did not address all the pension-related events that may have caused the
    increased pension costs at the time of acquisition. According to DFARS, the
    acquisition of TRW and the 21 percent increase in pension costs should have
    prompted DCMA representatives to conduct a CIPR including these
    pension-related events. Additionally, these events met the criteria provided as
    high-risk in DCMA guidance. As a high-risk area, the pension-related events
    should be included as part of a CIPR. A CIPR addressing these pension-related
    events should have identified the reasonableness of increased pension costs.




                                        5
CIPRs. DCMA representatives performed several CIPRs on Northrop Grumman
after the acquisition of TRW. DCMA Report No. 083-05, August 31, 2005,
“Special CIPR NGC [Northrop Grumman Corporation],” reviewed the 2002 (and
2003, if available) actuarial valuations for 22 qualified retirement plans and
various non-qualified plans. DCMA Report No. 068-04, May 28, 2004, “Special
CIPR NGC [Northrop Grumman Corporation],” examined pension plan costs
forecasted for 2004, including the TRW Pension Plan. DCAA audit report
No. 4721-2004F19413001, “Review of Pension Segment Closing Requirements
Associated with the Divestiture of TRW Automotive and Aeronautical Systems
Group,” August 10, 2005, reviewed Northrop Grumman’s divestitures of TRW
commercial divisions for compliance with CAS. However, the scope of these
CIPRs did not address the specific pension-related events identified in this report.

DFARS. DFARS Subpart 242.73 provides the requirements for conducting a
CIPR. The regulation specifies that a special CIPR should be performed if the
contractor is involved in a merger, acquisition, or divestiture. A CIPR needs to be
performed when there is a material impact on Government contract costs. The
Northrop Grumman acquisition of TRW represented an acquisition. The
21 percent increase in pension costs had a material impact on DoD costs.
Therefore, the DCMA representatives should have conducted a CIPR that
addressed the specific pension-related events identified in this report.

DCMA Guidebook. According to the DCMA Guidebook, “Contractor Insurance
and Pension Review,” October 2004, the CIPR process is based on risk
management. The scope of the CIPR is based on those specific aspects of a
contractor’s pension program that represent a high-risk. Examples of high-risk
areas include the following situations.

   •   A forward pricing proposal has been submitted which includes a defined
       benefit pension plan.

   •   The qualifying sales of a new or existing contractor reach the $40 million
       threshold.

The Northrop Grumman acquisition of TRW included both of these high-risk
elements. The DCMA pension specialist stated that, although most mergers and
acquisitions are considered high risk, a CIPR was not necessary in this instance.
However, the DCMA pension specialist did not document the recommendation
for not conducting a CIPR covering the pension-related events.

Additionally, the DCMA pension specialist did not consider the effect of a change
in the percentage of Government work when determining whether to conduct a
CIPR. However, when Northrop Grumman sold the commercial segments, costs
associated with employees who performed primarily commercial work may
become costs to DoD as the percentage of workload transitions. These pension
costs should be reviewed and considered as high-risk.




                                     6
Conclusion
    DCMA representatives did not document why the Northrop Grumman pension
    costs increased by 21 percent. Therefore, DoD has no assurance that the
    increased costs to the TRW Pension Plan at the time of the TRW acquisition are
    reasonable. Several pension-related events at the time of the acquisition may
    have contributed to the change in pension costs, including the change in the long-
    term interest valuation rate, the use of a different long-term investment rate for
    forward pricing calculations, the payment of lump sum benefits associated with
    corporate commercial employees, and the new pension line item costs charged to
    DoD. However, since a CIPR was not conducted to review these pension-related
    events, DCMA representatives cannot determine the reasonableness of the Space
    and Mission Systems pension plan costs. Therefore, DCMA representatives
    should conduct a CIPR that covers the pension-related events discussed in this
    report to determine why the pension plan costs increased by 21 percent. Without
    conducting this review, DoD may continue to pay higher pension costs without
    knowing whether the increase in pension costs for the Northrop Grumman Space
    and Mission Systems pension plan are reasonable.


Management Comments on the Finding and Audit Response
    DCMA Comments. DCMA disagreed that a CIPR should be performed to
    examine the pension related events we identified that may have caused the
    21 percent increase in pension costs. DCMA indicated that the CIPRs performed
    for Northrop Grumman focused on the transfer of pension assets during the sale
    of TRW to Northrop Grumman, which represents the most high risk aspect of any
    sale or merger. DCMA also stated that the pension related events identified by
    the DoD IG were not shown to be associated with any unallowable pension cost.
    In addition, the CIPRs performed did not disclose any unallowable pension costs.
    DCMA indicated that the CIPRs performed for Northrop Grumman included the
    information needed by the Defense Corporate Executive. DCMA stated
    performing another CIPR would not provide any value added benefit to the
    Defense Corporate Executive.

    Audit Response. We agree that the Defense Corporate Executive had several
    CIPR reports on which to base decisions. However, the reasons for the 21 percent
    increase in pension costs immediately following the acquisition of TRW by
    Northrop Grumman have not been identified and documented. The DCMA
    comments do not provide any definitive reasons for the significant increase in the
    pension costs. Additionally, the CIPRs performed do not address why this
    significant pension cost increase occurred at the time of the acquisition. Without
    identifying the reasons for this significant increase, the reasonableness of these
    pension costs cannot be determined. The finding indicates several pension related
    events that may have resulted in an increase in pension costs. The cost of these
    events has not been quantified to identify the percentage of cost increase related
    to any specific pension event. We maintain that the reasons for such a significant
    increase in pension costs to DoD should be specifically identified and
    documented.


                                         7
Recommendations, Management Comments, and Audit
  Response

    We recommend that the Director, Defense Contract Management Agency:

    1. Require a Contractor Insurance/Pension Review of the pension-related
    events that occurred at the time of the Northrop Grumman acquisition of
    TRW.

    DCMA Comments. DCMA nonconcurred because in accordance with the
    DFARS guidance and the DCMA guidebook, the Defense Corporate Executive is
    responsible for determining the scope of the CIPRs performed at the time of
    mergers. The CIPRs performed by DCMA in 2004 provided the necessary
    information in order for the Defense Corporate Executive to make prudent
    decisions pertaining to the contractor’s pension accounting and associated costs.
    In addition, DCMA stated that the Defense Corporate Executive had all necessary
    information needed to make decisions and determine the reasonableness of
    pension cost related to the acquired pension plans. Further, a comprehensive
    CIPR of the pension related events identified in this report would be of no value
    to the Defense Corporate Executive.

    Audit Response. The DCMA comments are not responsive to the
    recommendation. The primary reason for the recommendation is to identify the
    reasonableness of the 21 percent pension cost increase. The DCMA response
    does not indicate the specific events that caused the increased pension costs.
    Additionally, the CIPRs performed do not address why this significant pension
    cost increase occurred at the time of the acquisition. DCMA does not quantify
    the percentage of cost increase related to any specific pension event at the time of
    the acquisition of TRW. The Defense Corporate Executive cannot determine that
    a 21 percent increase is reasonable without identifying and documenting the
    reasons it occurred. A CIPR should be conducted to determine the reasons for the
    increase and to identify the reasonableness of any factors that contributed to
    increased pension costs. We request that DCMA reconsider its position on the
    recommendation and provide comments on the final report.

    2. Update existing Contractor Insurance/Pension Review guidance in the
    Defense Contract Management Agency guidebook as follows.

                   a. Require CIPR teams to maintain documentation supporting
    the decision not to conduct a Contractor Insurance/Pension Review when
    high-risk issues are present but a Contractor Insurance/Pension Review is
    not conducted.

    DCMA Comments. DCMA nonconcurred stating that guidance related
    recommendations would be addressed at the completion of the DoD IG’s series of
    audits of pension plans at the major contractors. DCMA indicated that in this
    manner, changes to guidance can be addressed on a comprehensive basis which
    would avoid developing guidance related to contractor-specific situations or
    circumstances.


                                         8
    Audit Response. The DCMA comments are not responsive to the
    recommendation. We do not agree that maintaining documentation supporting
    the decision not to conduct a CIPR when high risk issues are present is a
    contractor-specific situation. The documentation would indicate the Defense
    Corporate Executive’s rationale for not conducting a CIPR regardless of the
    contractor involved. We request that DCMA reconsider its position on the
    recommendation and provide comments on the final report.

                b. Include a change in the percentage of a contractor’s
    Government-to-commercial workload as a high-risk event.

    DCMA Comments. The DCMA nonconcurred stating that guidance related
    recommendations would be addressed at the completion of the DoD IG’s series of
    audits of pension plans at the major contractors. DCMA indicated that in this
    manner, changes to guidance can be addressed on a comprehensive basis which
    would avoid developing guidance related to contractor-specific situations or
    circumstances.

    Audit Response. The DCMA comments are not responsive to the
    recommendation. We do not agree that identifying a change in a contractor’s
    government to commercial workload as a high risk event is a contractor-specific
    situation. This type of change in workload can occur regardless of the contractor
    involved. We request that DCMA reconsider its position on the recommendation
    and provide comments on the final report.


Management Comments Required
    In response to the final report, management is requested to provide additional
    comments on recommendations 1., 2.a. and 2.b.




                                         9
Appendix A. Scope and Methodology
   To evaluate the DCMA reviews of the Northrop Grumman pension accounting
   records and determine whether DoD’s interest in Government-funded pension
   assets was adequately protected, we reviewed pension asset records, applicable
   DCMA and DCAA reports, and actuarial reports for both Northrop Grumman and
   TRW. Specifically, we met with representatives from Headquarters, DCMA;
   DCMA Staten Island, New York (CIPR Team East); DCMA Carson, California
   (CIPR Team West); DCMA Resident Office at Northrop Grumman; DCMA
   Cleveland, Ohio; Headquarters, DCAA; DCAA, Northern Ohio Branch Office;
   DCAA Northrop Grumman Corporation Resident Office; and Northrop
   Grumman. We reviewed documentation dated November 17, 1992, through
   August 10, 2005. We performed this audit from September 2005 through
   April 2006 in accordance with generally accepted government auditing standards.
   The scope of our audit was limited to the Northrop Grumman acquisition of
   TRW. Our review did not identify any instance where Government-funded
   pension assets were not adequately protected. Also, we did not review the
   managers’ internal control program because it was not a stated audit objective.

   To accomplish the audit objectives, we reviewed the following.

      •   Pension segment accounting records prepared by Northrop Grumman and
          TRW, the Internal Revenue Service Form 5500 as submitted to the
          Department of Labor for 1995 - 2003, Actuarial Reports for 1997 and
          1999 - 2003, trust statements for 2003 for the Northrop Grumman Space
          and Mission Systems pension plan, and 1995 - 2004 financial reports for
          Northrop Grumman and TRW. We also reviewed purchase and sale
          agreements for the sale of the TRW Automotive Division and the
          Northrop Grumman acquisition of TRW. We reviewed the documents to
          determine whether the assets of the TRW Pension Plan were accounted for
          and transferred properly as a result of the Northrop Grumman acquisition
          of TRW.

      •   Applicable laws and regulations to include Cost Accounting Standard 412,
          “Cost Accounting Standard for Composition and Measurement of Pension
          Cost;” Cost Accounting Standard 413, “Adjustment and Allocation of
          Pension Cost;” DFARS Subpart 242.73, “Contractor Insurance/Pension
          Review;” the Defense Contract Audit Agency Contract Audit Manual; and
          the DCMA Instructions and Guidebook for Contractor Insurance/Pension
          Reviews. We reviewed the documents to evaluate whether the transaction
          involving the Northrop Grumman acquisition of TRW represented a
          segment closing and if it required a segment closing calculation. Also, we
          reviewed the documents to determine whether DCMA conducted CIPRs in
          accordance with applicable guidance.




                                      10
         •   Northrop Grumman Space and Mission Systems pension plan forward
             pricing rate proposals for 2002 through 2005, DCAA audit reports for
             2003 through 2005, and DCMA technical review reports for 2003 through
             2005 related to the costs associated with the forward pricing rate
             proposals. We reviewed the documents to determine whether pension cost
             issues raised by DCAA had been resolved and potential reasons for
             increases in pension costs for the plan after the Northrop Grumman
             acquisition of TRW.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls related to the contractor computer systems used to generate
    pension-related reports. We did not evaluate the controls because the information
    was used only to determine whether the proper amount of pension assets were
    transferred to the Government-related pension plans during the business
    acquisitions. Therefore, the results of the audit were not affected by not
    evaluating the controls.

    Use of Technical Assistance. Pension experts from the Department of Defense
    Office of Inspector General Defense Financial Auditing Service directorate
    assisted the audit team on pension-related issues. Additionally, a computer
    engineer from the Department of Defense Office of Inspector General
    Investigative Policy and Oversight, Technical Assessment Division helped us
    determine the feasibility of creating a pension asset database.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued three reports discussing pension assets. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2005-077, “Accounting for Sperry Marine Pension Plan
    Assets under an Advance Agreement with Litton Industries, Inc.,” June 17, 2005.

    DoD IG Report No. D-2004-025, “Accounting for Pension Assets under Advance
    Agreements with Northrop Grumman and Litton Industries, Inc.,”
    November 25, 2003.

    DoD IG Report No. D-2002-145, “Effect of Raytheon Defense Business
    Acquisitions on Pension Plans and DoD Funded Pension Assets,”
    September 11, 2002.




                                        11
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                          12
Defense Contract Management Agency
Comments




                    13
14
15
16
17
18
19
20
21
22
23
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Raymond D. Kidd
Kenneth B. VanHove
Ronald R. Meissner
Laura J.S. Croniger
Carrie A. Wade
Randall M. Critchlow
Sarah M. Senko
Raymond A. Sloss
Catherine Bird
